U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 21, 2020

Reginald Hollie v. USA,
S.Ct No. 20-6460

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
23, 2020 and placed on the docket on November 27, 2020. The government’s response is due on
December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6460
HOLLIE, REGINALD
USA

JENNY L. DEVINE
RESEARCH AND WRITING ATTORNEY
400 N. TAMPA STREET
SUITE 2700
TAMPA , FL 33602
813-228-2715
JENNY_DEVINE@FD.ORG
813-228-2562(Fax)

